No. 19-357
IN THE SUPREME COURT OF THE UNITED STATES
_________________
CITY OF CHICAGO, ILLINOIS, PETITIONER
v.
ROBBIN L. FULTON, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES AS AMICUS CURIAE IN SUPPORT OF
PETITIONER, via email and first-class mail, postage prepaid, this 10TH day of February, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 8851 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on February 10, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 10, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0357
CITY OF CHICAGO, ILLINOIS
ROBBIN L. FULTON, ET AL.

MICHAEL LEWIS COOK
SCHULTE ROTH & ZABEL LLP
919 THIRD AVENUE
NEW YORK, NY 10022
212.756.2150
MICHAEL.COOK@SRZ.COM
ALEXANDRA E. DUGAN
BRADLEY ARANT BOULT CUMMINGS LLP
1600 DIVISION ST.
STE. 700
NASHVILLE, TN 37203
MARK A. FLESSNER
CITY OF CHICAGO OFFICE OF CORPORATION
COUNCEL
30 N. LASALLE STREET
SUITE 800
CHICAGO, IL 60602
312-744-7764
CRAIG GOLDBLATT
WILMER CUTLER PICKERING HALE AND
DORR LLP
1875 PENNSYLVANIA AVENUE, NW
WASHINGTON , DC 20006
202-663-6000
CRAIG.GOLDBLATT@WILMERHALE.COM
STEPHEN C. PARSLEY
BRADLEY ARANT BOULT CUMMINGS LLP
1819 FIFTH AVENUE NORTH
BIRMINGHAM, AL 35203

SCOTT BURNETT SMITH
BRADLEY ARANT BOULT CUMMINGS LLP
200 CLINTON AVENUE WEST
SUITE 900
HUNTSVILLE, AL 35801
256-517-5198
SSMITH@BRADLEY.COM
CATHERINE STEEGE
JENNER & BLOCK LLP
353 N. CLARK STREET
CHICAGO, IL 60654
312-222-9350
CHARLES W. THOMPSON
INTERNATIONAL MUNICIPAL LAWYERS
ASSOCIATION
51 MONROE ST.
SUITE 404
ROCKVILLE, MD 20850
CARL WEDOFF
JENNER & BLOCK LLP
919 THIRD AVENUE
NEW YORK , NY 10022
EUGENE R. WEDOFF
144 N. ELMWOOD AVENUE
OAK PARK , IL 60302
312-285-5849
ERWEDOFF@ME.COM
JOHN P. WONAIS
THE SEMRAD LAW FIRM LLC
20 S. CLARK STREET
CHICAGO, IL 60603
312-256-8516

